Exqisyv,

Court of Appeal, Third Appellate District - No. C082061
S262672

IN THE SUPREME COURT OF CALIFORNIA
En Banc

SUIR itE COURT
r

F

THE PEOPLE, Plaintiff and Respondent,

JUL 1 5 2020
Jorge Navarrete Clerk

v.
MIGUEL A. RAMIREZ, Defendant and Appellant.

The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

Deputy

California Courts - Appellate Court Case Information

https://appellatecases.courtinfo.ca.gov/search/case/disposition.cfm?

Appellate Courts Case Information

CALIFORNIA COURTS
THE JUDICIAL BRANCH OF CALIFORNIA

I Change court

3rd Appellate District
Court data last updated: 11/24/2020 06:39 AM

Disposition
The People v. Ramirez
Case Number C082061
Description:
..

Affirmed in full

Date:

j 05/04/2020

Disposition

[ Final

.

Type:

The judgment is affirmed.

Publication
Status:

Signed Unpublished

Author:

Raye, Vance W.

Participants:

Murray, Jr., William J. (Concur)
Krause, Peter A. (Concur)
•
none

Case
Citation:

Click here to request automatic e-mail notifications about this case.

Careers I Contact Us I Accessibility I Public Access to Records I Terms of Use I
Privacy

of 1

© 2020 Judicial Council of
California

11/24/2020, 10:39 AM

California Courts - Appellate Court Case Information

-https://appellatecases.courtinfo.ca.gov/search/case/mainCaseScreen

Appellate Courts Case Information

3rd Appellate District

CALIFORNIA COURTS
THE JUDICIAL BRANCH OF CALIFORNIA

Change court

Court data last updated: 11/24/2020 06:39 AM

Case Summary
Trial Court Case:

14F05783

Court of Appeal

C082061

Case:
Supreme Court

S262672

Case:
Court of Appeal

[PDF] [DOCXJ

Opinion:
Caution: For information on when opinions may be cited or relied upon, click here.
Division:
Case Caption:

The People v. Ramirez

Case Type:

CR

Filing Date:

05/13/2016

Completion Date:

07/16/2020

Oral Argument
Date/Time:
Click here to request automatic e-mail notifications about this case.

Careers I Contact Us I Accessibility I Public Access to Records I Terms of Use I
Privacy

of 1

© 2020 Judicial Council of
California

11/24/2020, 10:39 AM

Supreme Court No.
SUPREME COURT OF THE STATE OF CALIFORNIA
PEOPLE OF THE STATE OF
CALIFORNIA,
Plaintiff-Respondent,
v.
MIGUEL RAMIREZ,
Defendant-Appellant.

) Ct. of App. No. C082061
)
) Sup. Ct. No. 14F05783
)
)
)
)
)
)
)
)

APPEAL FROM SACRAMENTO COUNTY
SUPERIOR COURT
HONORABLE KEVIN J. McCORMICK, JUDGE

PETITION FOR REVIEW IN THE SUPREME COURT
'AFTER THE UNPUBLISHED OPINION OF THE THIRD
APPELLATE DISTRICT, AFFIRMING THE JUDGMENT

REBECCA P. JONES, Esq.
California Bar No. 163313
3549 Camino del Rio South, Ste. D
San Diego, CA 92108
(619) 269-7872
Attorney for Appellant
RAMIREZ
Appointed by the Court of Appeal
under the CCAP
Independent Case Program

TABLE OF CONTENTS
TABLE OF AUTHORITIES

3

QUESTIONS PRESENTED FOR REVIEW

5

STATEMENT OF THE CASE

5

REASONS FOR GRANTING REVIEW

5

THE INCORRECT INSTRUCTION ON INTENT
IMPROPERLY ALLOWED JURORS TO CONVICT
PETITIONER ON LESS THAN PROOF BEYOND
5
A REASONABLE DOUBT
THE UNANIMITY INSTRUCTION IMPROPERLY
ALLOWED JURORS TO CONVICT PETITIONER
OF CONTINUOUS SEXUAL ABUSE BASED ON A
SINGLE ACT
THIS COURT SHOULD GRANT REVIEW
BECAUSE THE TRIAL WAS INFECTED WITH
CUMULATIVE INSTRUCTIONAL ERROR

11

CONCLUSION

12

CERTIFICATE OF COMPLIANCE

12

PROOF OF SERVICE

14

APPENDIX A

16

2

TABLE OF AUTHORITIES
CASES
Chambers v. Mississippi (1973) 410 U.S. 284
Chapman v. California (1967) 386 U.S. 18
In re Winship (1970) 397 U.S. 358
Montana v. Egelhoff (1996) 518 U.S. 37
Neder v. United States (1999) 527 U.S. 1

11
6, 7, 8
10
11
6, 7

People v. Jackson (2014) 58 Ca1.4th 724

7

People v. Sengpadychith (2001) 26 Ca1.4th 316

8

People v. Valenti (2016) 243 Ca1.App.4th 1140

8

Sullivan v. Louisiana (1993) 508 U.S. 275

6, 7

STATUTES
U.S. Const., amend. 5

8

U.S. Const., amend. 14

10

MISCELLANEOUS
CALCRIM 252

5

CALCRIM 1120

9, 10

CALCRIM 3501

9, 10

3

Supreme Court No.
SUPREME COURT OF THE STATE OF CALIFORNIA
) Ct. of App. No. C082061
)
) Sup.Ct. No. 14F05783
)
)
)
)
)
)
)
)

PEOPLE OF THE STATE OF
CALIFORNIA,
Plaintiff-Respondent,
v.
MIGUEL RAMIREZ,
Defendant-Appellant.

APPEAL FROM SACRAMENTO COUNTY
SUPERIOR COURT
HONORABLE KEVIN J. McCORMICK, JUDGE

PETITION FOR REVIEW IN THE SUPREME COURT
AFTER THE UNPUBLISHED OPINION OF THE THIRD
APPELLATE DISTRICT, AFFIRMING THE JUDGMENT

TO THE HONORABLE TANI CANTIL SAKAUYE, CHIEF
JUSTICE, AND THE HONORABLE ASSOCIATE JUSTICES OF
THE SUPREME COURT OF THE STATE OF CALIFORNIA:
Petitioner Miguel A. Ramirez petitions this Honorable
Court to review the unpublished opinion issued by the Court of
Appeal, Third Appellate District, on May 4, 2020, affirming the
petitioner's convictions and sentence for a variety of sex offenses.
A copy of the opinion is attached as Appendix "A."

4

QUESTIONS PRESENTED FOR REVIEW
Whether a jury instruction incorrectly stating that .
continuous sexual abuse of a child is a general intent crime
was prejudicial?
Whether the trial court's unanimity instruction improperly
allowed jurors to convict petitioner of continuous sexual
abuse based on a single act?
Whether cumulative instructional error rendered
petitioner's trial unfair under the U.S. Constitution?
STATEMENT OF THE CASE
The opinion adequately sets forth the procedural and
factual history of the case.
REASONS FOR GRANTING REVIEW
I.
THE INCORRECT INSTRUCTION ON INTENT
IMPROPERLY ALLOWED JURORS TO CONVICT
PETITIONER ON LESS THAN PROOF BEYOND
A REASONABLE DOUBT
The Court of Appeal agreed that the version of CALCRIM
252 given to petitioner's jury incorrectly identified continuous
sexual abuse of a minor as a general intent crime, but held that
the error was harmless, finding overwhelming evidence proved
Mr. Ramirez must have intended to arouse himself when he
touched Doe. [Slip op. at 5-6.] This Court should grant review to
reject the Court of. Appeal's use fof the "overwhelming evidence"
standard to find the error harmless.

The Court of Appeal agreed that the prejudice standard for
this error is governed by Chapman v. California (1967) 386 U.S.
18, 24 [see slip op. at 5], but Chapman explicitly precludes a
reviewing court from finding harmless error based solely "upon
the court's [own] view of 'overwhelming evidence."' (Chapman,
supra, 386 U.S. at p. 23.) "The inquiry, in other words, is not
whether, in a trial that occurred without the error, a guilty
verdict would surely have been rendered, but whether the guilty
verdict actually rendered in this trial was surely unattributable
to the error. That must be so, because to hypothesize a guilty
verdict that was never in fact rendered — no matter how
inescapable the findings to support that verdict might be — would
violate the jury-trial guarantee." (Sullivan v. Louisiana (1993)
508 U.S. 275, 279.)
When the U.S. Supreme Court used "overwhelming
evidence" to describe the harmless error standard in Neder v.
United States (1999) 527 U.S. 1, it said instructional error would
be harmless if the omitted element was both uncontested and
supported by overwhelming evidence. Justice Liu has noted in
dissent that appellate courts should not measure the sufficiency
of the evidence in determining whether an error is harmless
under Chapman, because sufficiency' determinations are
supposed to belong to juries:
The risk of an appellate court usurping the jury's role
becomes especially great when harmless error
analysis focuses not on whether error might have
affected the jury's decisionmaking, but on whether
6

fi

fl

fl

there was overwhelming evidence to support the
result. As Chief Justice Traynor explained, "It is one
thing for an appellate court to determine that a
verdict was or was not affected by error. It is quite
another for an appellate court to become in effect a
second jury to determine whether the defendant is
guilty." (Traynor, The Riddle of Harmless Error
(1970) p. 21 (Traynor); see Neder v. United States
(1999) 527 U.S. 1, 31-32 [144 L. Ed. 2d 35, 119 S. Ct.
1827] (conc. & dis. opn. of Scalia, J.); Sullivan, at p.
280; Edwards, supra, 70 N.Y.U. 'L.Rev. at pp.
1185-1199; Field, Assessing the Harmlessness of
Federal Constitutional Error — A Process in Need of a
Rationale (1976) 125 U.Pa. L.Rev. 15.)
(People v. Jackson (2014) 58 Cal.4th 724, 790-791.)
This Court also should grant review on the harmlessness
analysis because it improperly placed the burden of proof on
petitioner — noting "Defendant provided no explanation for any
acts before Doe turned 14" [slip op. at 6] — in contravention of
Chapman's explicit command that the prosecution prove, that any
constitutional error is harmless beyond a reasonable doubt. The
question under Chapman is not whether the defendant provided
any or much of a defense the charges. It is whether the erroneous
instruction influenced the jury's assessment of the evidence,
including the credibility of the prosecution's witnesses and the
credibility of the prosecution's interpretation of that evidence.

If the Court of Appeal had followed Chapman, it would
have agreed with Mr. Ramirez's characterization of the prejudice:
(1) Mr. Ramirez testified that none of the prior touching occurred.
In People v. Valenti (2016) 243 Cal.App.4th 1140, superseded by
statute on other grounds as stated in People v. Brooks (2018) 23
Cal.App.5th 932, 945, footnote 17, the defendant's testimony was
sufficient to show the instructional error was prejudicial. "This
testimony, if believed, would have supported a contrary finding
on the omitted element." (Valenti, supra, at p. 1167.) (2) Doe
made numerous vague allegations against Mr. Ramirez, even
though she denied to her mother, police and health care providers
that anyone had touched her sexually before August 2014 (the
date on which her mother found her and Mr. Ramirez in bed
together). (3) Doe was actively involved in therapy for a prior
sexual assault when these alleged new assaults were happening,
and she refused to tell that therapist that she was being
assaulted. (4) No forensic evidence corroborated the acts
underlying count one.
The only count that was a slam dunk was count twelve. All
of the others had credibility and vagueness problems. These are
exactly the kinds of problems that can be exacerbated by incorrect
or conflicting jury instructions on intent.
This Court also should grant review to address the federal
constitutionaPerror caused by the instructions, which removed an
element of the offense from jurors' consideration. (U.S. Const.,
amend. 5; People v. Sengpadychith (2001) 26 Ca1.4th 316, 324 [a

failure to instruct on an element of an offense is federal
constitutional error].)
II.
THE UNANIMITY INSTRUCTION IMPROPERLY
ALLOWED JURORS TO CONVICT PETITIONER
OF CONTINUOUS SEXUAL ABUSE
BASED ON A SINGLE ACT
Mr. Ramirez argued that CALCRIM 3501 and CALCRIM
1120, read together, gave jurors improperly contradictory
instructions on their duty to make unanimous findings on what
acts he committed. In particular, he argued that the trial court's
version of CALCRIM 3501 failed to explain that jurors'
unanimous agreement_ on one act — in the face of generic
allegations of multiple sex acts over time — would be insufficient
to convict Mr. Ramirez of continuous sexual abuse. He also
argued that even though CALCRIM 1120 directed jurors to
unanimously find that three acts occurred, CALCRIM 1120 did
not address the particular challenges presented by generic
testimony and purportedly cured by CALCRIM 3501. In
particular, CALCRIM 1120 does not tell jurors how to assess
vague, generic allegations of multiple acts alleged to have
occurred over a period of months or years, or how to aggregate
that vague evidence to find the commission of three acts sufficient
to prove continuous sexual abuse. And CALCRIM 3501 addresses
vague generic testimony but does not explain how to aggregate
vague generic testimony to find the commission of three acts.
The Court of Appeal rejected this argument, stating that no
9

unanimity instruction was required and that the instructions as
given were correct because the singular term "act" as stated in
CALCRIM 3501 described "continuous abuse," which was
described in CALCRIM 1120 as "three or more acts." [Slip op. at
6-7.] This analysis ignores how confusing it is to characterize a
crime that requires proof of three acts as a single act. Lawyers —
and judges might be expected to understand these subtle
distinctions, but asking that level of analysis from jurors is
unreasonable. And the purpose of jury instructions is to give
jurors an understandable and usable exposition of the law.
The Court of Appeal unreasonable refused to recognize that
jurors could have found the term "at least one of these acts"
conflicted with "three or more lascivious acts." The terms are
facially contradictory, and the instructions did nothing to explain
the conflict between them. This Court should grant review to
address the conflict and to address the federal constitutional
error it: created by allowing the jury to convict Mr. Ramirez with
continuous sexual abuse on less than proof beyond a reasonable
doubt of every element of the charged offense. (See U.S. Const.,
amend. 14; In re Winship (1970) 397 U.S. 358.)
III.
THIS COURT SHOULD GRANT REVIEW
BECAUSE THE TRIAL WAS INFECTED
WITH CUMULATIVE INSTRUCTIONAL ERROR
Not surprisingly, the Court of Appeal rejected Mr.
Ramirez's claim that the cumulative effect of the errors in his
case violated his federal constitutional right to due process
10

because it found no errors in the conduct of the trial. The U.S.
Supreme Court has clearly established that the combined effect of
multiple trial court errors violates due process where it renders
the resulting criminal trial fundamentally unfair. (Chambers v.
Mississippi (1973) 410 U.S. 284, 298, 302-03 [combined effect of
individual errors "denied [Chambers] a trial in accord with
traditional and fundamental standards of due process" and
"deprived Chambers of a fair trial"].) The cumulative effect of
multiple errors can violate due process even where no single error
rises to the level of a constitutional violation or would
independently warrant reversal. (Chambers, supra, 410 U.S. at
290 n. 3. See also Montana v. Egelhoff (1996) 518 U.S. 37, 53
[stating that Chambers held that "erroneous evidentiary rulings
can, in combination, rise to the level of a due process violation"].)
Once this Court agrees with Mr. Ramirez that the Court of
Appeal incorrectly assessed the merit of his claims, it should
revisit the cumulative error analysis and find that even if no
error alone merits reversal, the cumulative effect of the errors in
this case violate due process.
CONCLUSION
For the foregoing reasons, this Court should grant review
on the questions presented.
Respectfully submitted,

Dated: June 10, 2020 By:
REBECCA P. JONES
Calif. Bar No. 163313
Attorney for Petitioner RAMIREZ
11

4,

CERTIFICATE OF COMPLIANCE
I, Rebecca P. Jones, counsel for Miguel A. Ramirez, certify
pursuant to the California Rules of Court that the word count for
this document is 2,134 words, excluding the tables, this
certificate, and any attachment permitted under rule 8.360. This
document was prepared in Word Perfect and this is the word
count generated by the program for this document.
I certify under penalty of perjury under the laws of the
State of California that the foregoing is true and correct.
Executed, at San Diego, California, on June 10, 2020.
Respectfully sibmitted,•

REBECCA P. JONES
Attorney for Petitioner RAMIREZ

12

q/2-0//1
IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
THE PEOPLE OF THE STATE OF )
CALIFORNIA,
)
)
Plaintiff-Respondent,
)
)
v.
)
)
MIGUEL A. RAMIREZ,
)
)
Defendant-Appellant.
)
)

Ct. of App. No. C082061
Sup. Ct. No. 14F05783

APPEAL FROM SACRAMENTO COUNTY SUPERIOR COURT
HONORABLE STEVE WHITE, JUDGE

APPELLANT'S REPLY BRIEF

REBECCA P. JONES, Esq.
California Bar No. 163313
3549 Camino del Rio South, Suite D
San Diego, CA 92108
(619) 269-7872
Attorney for Appellant RAMIREZ
Appointed by the Court of Appeal
under CCAP
Independent Case Program

TABLE OF CONTENTS

TABLE OF CONTENTS

2

TABLE OF AUTHORITIES

3

I.

THE TRIAL COURT INCORRECTLY INSTRUCTED JURORS
THAT COUNT ONE WAS A GENERAL INTENT OFFENSE . . . 4
CALCRIM 252 did not state the law correctly based on the
4
facts of this case.
5
The error was not harmless
Mr. Ramirez did not forfeit this issue through his counsel's
7
failure to object.
Respondent has conceded the issue of federal constitutional error.
8

II.

THE TRIAL COURT IMPROPERLY FAILED TO MODIFY
CALCRIM 3501 TO REQUIRE UNANIMITY ON THE QUESTION
OF WHETHER MR. RAMIREZ COMMITTED THREE ACTS
9
SUPPORTING COUNT ONE

CONCLUSION

11

CERTIFICATE OF COMPLIANCE

12

PROOF OF SERVICE

13

2

TABLE OF AUTHORITIES
- .CASES

•

People.v. Bouzas (1991) 53 Ca1.3d 467

9

•

Chapman v. California (1967) 386 U.S. 18

10

People v. Neal (2003) 31 Ca1.4th 63

10

Sullivan v. Louisiana (1993) 508 U.S. 275

10

Taylor v. Kentucky (1978) 436 U.S. 478
People v. Valenti (2016) 243 Ca1.Appi4th 1140

6
•

6

People v. Weaver (2001) 26 Ca1.4th 876

8

People v. Whitham (1995) 38,Cal.App.4th 1282

5

STATUTES
Penal Code section 288.5

4

3

a

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
)
)
)
)
)
)
)
)
)
)
)

THE PEOPLE OF THE STATE OF
CALIFORNIA,
Plaintiff-Respondent,
v.
MIGUEL A. RAMIREZ,
Defendant-Appellant.

Ct. of App. No. C082061
Sup. Ct. No. 14F05783

I.
THE TRIAL COURT INCORRECTLY INSTRUCTED JURORS
THAT COUNT ONE WAS A GENERAL INTENT OFFENSE
Respondent contends that CALCRIM 252 correctly stated the law,
any possible error in its language was harmless, and trial counsel forfeited
any objection to the instruction by failing to object. Respondent is wrong
on all counts.
A.

CALCRIM 252 did not state the law correctly based on the facts
of this case.
Respondent spends plenty of space discussing how Penal Code

section 288.5 can be violated by general intent conduct — substantial sexual
contact — to explain why respondent believes CALCRIM 252 was correct as
given here. [Respondent's Brief "RB" 12-15, 18-19.] This entire argument

4

ignores the fact that the prosecution specifically decided that it did not want
jurors to be instructed on substantial sexual conduct and that it believed the
lewd and lascivious conduct language would cover all of its allegations. [3
RT 609.] The prosecution specifically asked that the "substantial sexual
conduct" language be removed from CALCRIM 1120. [3 RT 609.]. The
trial court agreed and only defined lewd and lascivious conduct to jurors.
[CT 217 (CALCRIM 1120 describing predicate acts as lewd and lascivious
acts).]
The trial court and the parties had an extended discussion about the
fact that the main difference between the lewd and lascivious act theory and
the substantial sexual conduct theory is that the prosecution does not need
to prove the defendant's intent under a substantial sexual conduct theory. <
(People v. Whithain (1995) 38 Ca1.App.4th 1282, 1288, 1290.) [See, e.g., 3
RT 607-610.]
When the only theory of liability upon which the jury is instructed
requires proof of a specific intent, and jurors are told that that very same
offense does not require proof of a defendant's specific intent, respondent
cannot credibly contend there was no error.
B.

The error was not harmless.
Importantly, respondent failed to distinguish Mr. Ramirez's citation

5

to and explanation of People v. Valenti (2016) 243 Cal.App.4th 1140,
superseded by statute on other grounds as stated in People v. Brooks (2018)
23 Cal.App.5th 932, 945, which involved a similar instructional problem.
Respondent also fails to address the fact that there were other
charges that required proof of a specific intent and CALCRIM 252
identified those charges but explicitly excluded count one from that
requirement.
The prosecutor did argue that the acts underlying the 288.5 charge
required specific intent to arouse the defendant or the complaining witness,
3 RT 635, but the prosecutor's arguments are not a valid substitution for
legally correct and complete jury instructions. (Taylor v. Kentucky (1978)
436 U.S. 478, 488-489.)
Respondent argues that any possible error must have been harmless
because Doe did not testify to any acts that could have involved touching
without the specific intent to arouse Mr. Ramirez or Doe. [RB 20-23.] The
problem here is that contrary to respondent's argument, this was not a case
in which jurors necessarily had to believe all of Doe's accusations or none
of them. Obviously, the fact of the last sex act was undisputed. But jurors
also had to sort out whether Doe's accusations of prior sex acts were
credible, particularly when they were remote in time and she had not

6

reported them previously. Jurors could have believed that more recent sex
acts — not covered by count one — occurred but also could have believed that
the earliest allegations were not true. Similarly, they could have believed
that Doe's allegations underlying count one were exaggerated, intentionally
or not, or were misdescribed.
The question is not whether Mr. Ramirez impeached Doe's
description of the acts underlying count one. The question is whether the
verdict on, count one was tainted by the fact that jurors received
contradictory instructions on the intent element.
Respondent has not proved that the error was harmless beyond a
reasonable doubt.
C.

Mr. Ramirez did not forfeit this issue through his counsel's
failure to object.
Respondent argues that Mr. Ramirez has forfeited his right to make

this argument because his trial counsel did not object to the instructions.
[RB 20.] Respondent bases his argument on the fact that defense counsel
affirmatively agreed to the instruction and on his contention that CALCRIM
252 was technically correct. [Ibid.]
Although respondent is correct that defense counsel agreed to the
instruction as given, defense counsel's acquiescence only operates as a
valid waiver if counsel actually had a valid tactical reason for failing to
7

object. (People v. Weaver (2001) 26 Cal.4th 876, 970 [doctrine of invited
error bars defendant from challenging on appeal an instruction given by the
trial court when defendant has made a conscious and deliberate tactical
choice to request the instruction].) The instructional discussion quoted in
respondent's brief shows that neither the court nor counsel understood that
telling jurors 288.5 is a general intent crime could conflict with the
instruction that the underlying 288(a) acts were specific intent crimes. [See
3 RT 613-615.] Thus, unless the record shows that defense counsel
understood the way the instructions could be confusing and had a tactical
reason for refusing ask that they be edited, this Court cannot find a valid
waiver of the issue on appeal.
Furthermore, as Mr. Ramirez demonstrated in supra, CALCRIM 252
as given here, within the context of the evidence and the arguments of
counsel, was not correct.
Defense counsel could not have intended to reduce the prosecution's
burden of proof by failing to require proof that Mr. Ramirez specifically
intended to arouse himself or the complaining witness.
D.

Respondent has conceded the issue of federal constitutional
error.
Although Mr. Ramirez recognizes that respondent argues there was

8

no instructional error, respondent did fail to address the argument that any
error violated the U.S. Constitution by undermining Mr. Ramirez's federal
constitutional right to trial by jury and conviction only upon proof beyond a
reasonable doubt of every element of the charge offense. Therefore, this
Court should deem respondent to have any conceded that if there is error, it
violated the U.S. Constitution. (E.g., People v. Bouzas (1991) 53 Ca1.3d
467, 480 [respondent apparently conceded legal point by ignoring
appellant's arguments and failing to address them].)
II.
THE TRIAL COURT IMPROPERLY FAILED TO MODIFY
CALCRIM 3501 TO REQUIRE UNANIMITY ON THE QUESTION
OF WHETHER MR. RAMIREZ COMMITTED THREE ACTS
SUPPORTING COUNT ONE
Respondent argues any possible conflict between CALCRIM 1120
and CALCRIM 3501 was harmless. [RB 25-26.] Respondent is wrong.
First, Mr. Ramirez agrees that the heading to his argument II
misstated the issue — jurors did not need to unanimously agree on all the
acts underlying count one. Instead, they did need to unanimously agree that
Mr. Ramirez committed at least three acts to support the section 288.5
charge. [Compare AOB 20 with RB 25.]
Second, respondent does not actually argue there was no conflict
between CALCRIM 3501 and CALCRIM 1120. This Court should find
9

that point conceded.
Third, this Court should disagree that any error was harmless. Even
though respondent concedes that the majority of this state's courts have
analyzed similar issues under Chapman v. California (1967) 386 U.S. 18,
24, he pins his entire harmlessness argument on his assessment that Mr.:
Ramirez's defense was simply not credible. [See RB at 26.]
The question under Chapman is not whether respondent or this Court
believes the defendant's testimony was credible. The question is whether
the prosecution can show, beyond a reasonable doubt, that the instructional
error had no effect on the jury's verdict. As the California Supreme Court
explained in People v. Neal (2003) 31 CalAth 63, this Court must "find
that error unimportant in relation to everything else the jury considered on
the issue in question, as revealed in the record.' [Citation.] Thus, the focus
is what the jury actually decided and whether the error might have tainted
its decision. That is to say, the issue is 'whether the . . . verdict actually
rendered in this trial was surely unattributable to the error.' (Sullivan v.
Louisiana (1993) 508 U.S. 275, 279, 113 S. Ct. 2078, 124 L. Ed. 2d 182 ...
.)" (Neal, supra, at p. 86.)
Mr. Ramirez contested all of the allegations, but the fact that he was
convicted of all counts does not mean the jury necessarily found his

10

testimony incredible on every count. Count one was focused on the acts
that allegedly occurred before Doe turned 14; the remaining counts focused
on acts that occurred when she was 14 and older. Given that Doe was 16
when the sexual acts were discovered, it is not unreasonable to think that
jurors might have struggled to agree that the behavior most remote in time
and that was described most vaguely actually occurred. And jurors could
have believed, based on Doe's admitted lies and prior failure to report, that
most of the count one allegations were not true, even if they believed the
other allegations were true.
Respondent fails to. address these possibilities, even though Mr.
Ramirez pointed them out in his AOB. [AOB 27.]
Respondent fails to show beyond a reasonable doubt that the error
was harmless.
CONCLUSION
For the foregoing reasons, this Court should reverse Mr. Ramirez'
conviction on count one.
Respectfully submitted,
/s/ Rebecca P. Jones
Dated: September 16, 2019 By:
REBECCA P. JONES
Attorney for Defendant-Appellant
MIGUEL RAMIREZ
11

CERTIFICATE OF COMPLIANCE
I, Rebecca P. Jones, counsel for Miguel Ramirez, certify pursuant to
the California Rules of Court that the word count for this document is 1,976
words; excluding the tables,-this certificate, and any attachment permitted
under rule 8.360. This document was prepared in Word Perfect and this is
the word count generated by the program for this document.
I certify under penalty of perjury under the laws of the State of
California that the foregoing is true and correct. Executed at San Diego,
California, on September 16, 2019.
Respectfully submitted,
/s/ Rebecca P. Jones
REBECCA P. JONES
Attorney for Defendant-Appellant
RAMIREZ

12

qp

PEOPLE V. RAMIREZ
Case No. C082061

PROOF OF SERVICE
C.C.P. 1013a, 2015.5
I declare under penalty of perjury that the following is true and
correct:
I am a citizen of the United States and employed in the City and
County of San Diego. I am over the age of eighteen (18) years and not a
party to the within above-entitled action; my business address is 3549
Camino del Rio South, Suite D, San Diego, California 92108; on this date
mailed the APPELLANT'S REPLY BRIEF addressed as follows:
Central Calif. Appellate Program
2150 River Plaza Dr., Ste 300
Sacramento, CA 95833
e-service

Melissa M. van der Vijver
604 10th Street
Sacramento, CA 95814
Deputy DA Matthew Chisolm
901 G Street
Sacramento, CA 95814

Office of the Attorney General
P.O. Box 944255
Sacramento, CA 94244
e-service

Miguel A. Ramirez, AZ9910
HDSP
Facility A2-218 U
PO Box 3030
Susanville, CA 96127

Sacramento County Superior Court
Clerk of the Court
Hon. Steve White
720 Ninth St.
Sacramento, CA 95814

The above copies were deposited in the United States mail, first class
postage prepaid, at San Diego, California. I declare under penalty of perjury
that the foregoing is true and correct. Executed September 16, 2019, at San
Diego, California.

REBECCA P. JONES

13

